Department of Homeland Security
   Ofﬁce of Inspector General

                              Management Advisory Report
                                   On Cybersecurity




This report was prepared on behalf of Council of the Inspectors General on Integrity
and Efficiency




OIG-11-121                                                                             September 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                    September 30, 2011

                                          Preface

At the request of the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) Homeland Security Roundtable (HSR) and with the approval of the CIGIE
Executive Council, the Department of Homeland Security (DHS) Office of Inspector
General (OIG) chaired a Working Group of attorneys and information technology (IT)
professionals (IT security professionals, IT auditors, and other IT practitioners) and other
cybersecurity experts from OIGs of various sizes, including representatives of the
presidentially appointed and designated federal entity Inspectors General (IG)
community.

The CIGIE Cybersecurity Working Group was charged with undertaking a two-part
review in which it would (1) identify recommended practices for maintaining the
integrity of OIG IT systems and protecting them against internal threats and
vulnerabilities and (2) examine the role of the IG community in current federal
cybersecurity initiatives.

I am pleased to provide the CIGIE Cybersecurity Working Group’s recommended
practices for maintaining the integrity of OIG IT systems. This report is the product of
the first part of the review. It is based on the subject matter expertise of IT specialists
from a representative group of the IG community, discussions with industry
professionals, legal research, and a review of applicable websites and documents. These
recommended practices are intended to help the IG community address the many issues
and demands that OIGs and government managers face today. The recommendations
herein have been developed to the best knowledge available to the Working Group. We
trust that this report will result in more secure OIG IT systems. DHS OIG would like to
express its appreciation for the considerable amount of time dedicated to this effort.

I would like to acknowledge the support provided to this cybersecurity effort by all the
working group participants listed in appendix C. Of particular note is the work of Chris
Orcutt, Patrick Nadon, Jefferson Gilkeson, Jaime Vargas, Rachel Magnus, Phyllis Bryan,
Adam Berlin, Robert Duffy, and Rene Lee to produce a final document that represents
the needs of the IG community.




                                      Charles K. Edwards
                                      Acting Inspector General
Table of Contents
The Council of the Inspectors General on Integrity and Efficiency ...................................1

Executive Summary .............................................................................................................3

Background ..........................................................................................................................4

Results of Review ................................................................................................................4
   Asset Management and Leveraging Resources .............................................................4
   Identity, Credential, and Access Management ............................................................11
   Incident Detection and Handling .................................................................................18
   Scalable Trustworthy Systems .....................................................................................28

Appendices
     Appendix A:           Reference List of Relevant Guidance, Laws, and Regulations ...........35
     Appendix B:           Summary of Survey Results.................................................................42
     Appendix C:           Emergency Management Case Study ..................................................52
     Appendix D:           Contributors to this Report...................................................................55

Abbreviations
     CIGIE                       Council of the Inspectors General on Integrity and Efficiency
     CIO                         Chief Information Officer
     CIS                         Center for Internet Security
     CM                          configuration management
     CNCI                        Comprehensive National Cybersecurity Initiative
     COOP                        Continuity of Operations Plan
     CPR                         Cyberspace Policy Review
     DHS                         Department of Homeland Security
     DOD                         Department of Defense
     EH-11                       Eagle Horizon 2011 Exercise
     FDCC                        Federal Desktop Core Configuration
     FedRAMP                     Federal Risk and Authorization Management Program
     FEMA                        Federal Emergency Management Agency
     FICAM                       Federal Identity, Credential, and Access Management
     FIPS                        Federal Information Processing Standards
     FISMA                       Federal Information Security Management Act
     GPEA                        Government Paperwork Elimination Act
     GSA                         General Services Administration
     HIPAA                       Health Insurance Portability and Accountability Act of 1996
     HSPD                        Homeland Security Presidential Directive
     HSR                         Homeland Security Roundtable
     ICAM                        Identity, Credential, and Access Management
     IG                          Inspectors General
ITD    Information Technology Division
IT     information technology
MC     Mission Critical
MEF    Mission Essential Function
NIST   National Institute of Standards and Technology
NPE    non-person entity
OIG    Office of Inspector General
OMB    Office of Management and Budget
PIV    Personal Identity Verification
PKI    Public Key Infrastructure
SANS   System Administration Networking and Security
SCAP   Security Content Automation Protocol
SCM    security configuration management
SP     Special Publication
STIG   Security Technical Implementation Guides
TIC    Trusted Internet Connection
VPN    Virtual Private Network
The CIGIE was statutorily established as an independent entity within the
executive branch by the Inspector General Reform Act of 2008, Public
Law 110-409. The mission of the CIGIE is to—

   •   Address integrity, economy, and effectiveness issues that transcend
       individual government agencies; and

   •   Increase the professionalism and effectiveness of personnel by
       developing policies, standards, and approaches to aid in the
       establishment of a well-trained and highly skilled workforce in the
       federal IG community.

Membership

   •   All IGs whose offices are established under either section 2 or
       section 8G of the Inspector General Act, or pursuant to other
       statutory authority (e.g., the Special IGs for Iraq Reconstruction,
       Afghanistan Reconstruction, and Troubled Asset Relief Program)

   •   The IGs of the Office of the Director of National Intelligence (or at
       the time of appointment, the IG of the Intelligence Community)
       and the Central Intelligence Agency

   •   The IGs of the Government Printing Office, the Library of
       Congress, the Capitol Police, the Government Accountability
       Office, and the Architect of the Capitol

   •   The Controller of the Office of Federal Financial Management

   •   A senior-level official of the Federal Bureau of Investigation,
       designated by the Director of the Federal Bureau of Investigation

   •   The Director of the Office of Government Ethics

   •   The Special Counsel of the Office of Special Counsel

   •   The Deputy Director of the Office of Personnel Management



          Management Advisory Report on Cybersecurity

                            Page 1
   •   The Deputy Director for Management of the Office of
       Management and Budget (OMB)

CIGIE HSR

Since September 11, 2001, protecting our Nation has been a paramount
concern of the entire federal establishment. The IG community plays a
significant role in reviewing the performance of agency programs and
operations that affect homeland security. To a large extent, this has been
accomplished through collaborative efforts among multiple OIGs.

On June 7, 2005, the President’s Council on Integrity and Efficiency Vice-
Chair established a President’s Council on Integrity and Efficiency HSR.
The roundtable supports the IG community by sharing information,
identifying best practices, and participating on an ad hoc basis with
various external organizations and government entities. The CIGIE
Cybersecurity Working Group was formed under the auspices of the HSR.




          Management Advisory Report on Cybersecurity

                            Page 2
Executive Summary
        Computers, the Internet, and other electronic assets have become integral
        to the effective functioning of the federal government, its programs, and
        daily public life. These assets have become the targets of people with
        malicious intent, and thus represent an area of increased risk and
        vulnerability to the federal government. The community of Inspectors
        General must be proactive in preventing and addressing issues relating to
        cybersecurity, both in its oversight capacity and in its operational role. To
        that end, the Council of the Inspectors General on Integrity and Efficiency
        Cybersecurity Working Group was charged with identifying measures that
        the Inspector General community can take to protect itself against cyber
        attacks.

        This report covers four areas identified as cybersecurity challenges facing
        the Inspectors General community: (1) asset management and leveraging
        resources; (2) identity, credential, and access management; (3) incident
        detection and handling; and (4) scalable trustworthy systems. The topics
        are not exhaustive of all cybersecurity issues. They were identified by the
        Cybersecurity Working Group, using the DHS Roadmap for Cybersecurity
        Research, as the most salient and relevant issues facing Council of the
        Inspectors General on Integrity and Efficiency community members.

        The report offers recommended practices for the Inspectors General
        community taking into consideration the different risks or vulnerabilities
        of each OIG based on the degree to which information technology systems
        are dependent upon or connected to their parent agencies and whether they
        have sufficient human and financial resources to secure their information
        technology systems effectively. Although each element of the report will
        not apply to each unique OIG/parent agency structure, the report provides
        a foundation for understanding some of the most salient issues facing our
        organizations and the solutions to these issues. Generally, the
        cybersecurity issues faced by the Inspector General community are the
        same as those faced government-wide; however, for each office, the
        mission, type of information collected, and the type of work may impact
        the relative priority of the problems and issues. A subsequent report will
        address the Inspectors General community’s role in federal cybersecurity
        initiatives.




                   Management Advisory Report on Cybersecurity

                                     Page 3
Background
          IT has become pervasive in every way, from our phones and other small
          devices to our enterprise networks and the infrastructure that runs our
          economy. As the critical infrastructures of the United States have become
          increasingly dependent on public and private IT networks, the potential for
          widespread national impact resulting from disruption or failure of these
          networks has also increased. This report presents key topics and
          recommendations that the IG community can consider and use when
          securing existing systems and adopting new technologies.

          Cybersecurity is a broad and complex area of study. A six-month review
          cannot fully address all of the topics in the cybersecurity arena. The
          Working Group focused its efforts on the four challenges that are most
          salient to improving cybersecurity in the IG community: (1) asset
          management and leveraging resources; (2) identity, credential, and access
          management; (3) incident detection and handling; and (4) scalable
          trustworthy systems.

          As part of this effort, the Working Group surveyed the IG community to
          gather information on current and planned initiatives to address these
          challenges. It received responses from 41 of 79 members of CIGIE. The
          survey results, which are compiled and summarized in appendix B of this
          report, were used to analyze cybersecurity initiatives and trends in the IG
          community.


Results of Review
          The Working Group identified four areas which, if properly understood,
          designed, and monitored, provide the IG community and respective
          agencies with assurance that risks associated with the areas are minimized.
          The report is organized to reflect the logical steps taken to secure an
          infrastructure: identifying and managing assets, controlling and
          monitoring access to those assets, and managing detection and handling
          incidents. Last, the Working Group analyzed how emerging technology
          such as cloud computing can be leveraged into a trustworthy system.

     Asset Management and Leveraging Resources
          Asset management is the set of organizational practices that identify and
          control all elements of hardware and software in an organization. It is the
          first step toward managing network weaknesses, device vulnerabilities,
          and configuration challenges. Computer systems and the information they
          store are critical assets that support an organization’s mission. Protecting

                    Management Advisory Report on Cybersecurity

                                      Page 4
critical assets from cyber threats is an essential management function, and
therefore, an understanding of asset management and its processes is
fundamental to the IG community organizations.

Asset management refers to the tracking of all tools, their accessories, and
what each tool needs in order to perform as intended. Hardware asset
management is the management of physical components, while software
asset management focuses on software assets, which include installation
tracking for licensing, versioning, and upgrades. Asset management may
be compared to the organization of a tool-shed. Tools are typically owned
for use as needed; asset management best practices can help to find tools
that cannot be located immediately. To do so, users need a list that
includes each tool, its location, performance requirements, most recent
maintenance by date and type, and when the next maintenance should be
performed. Resources and time need to be devoted to keeping all this
information updated.

Many processes outside of the cybersecurity function play important roles
in cybersecurity asset management. For example, before you can check a
computer for necessary security patches, you need to know if the computer
exists, its location, and what operating system is installed on it. There also
needs to be a defined organizational process for prioritizing, testing, and
installing software patches.

From a security perspective, strong asset management can help network
administrators identify and manage network weaknesses and device
vulnerabilities. Unauthorized and undocumented network-attached
devices can leave an organization vulnerable to cyber threats, and
unmitigated software vulnerabilities may also leave an organization’s
networks susceptible to cyber attacks. Proper asset management can also
assist with identifying lost equipment and illicit configuration changes
when providing incident response support. Finally, cybersecurity asset
management is necessary to meet federal guidelines and directives such as
OMB Memorandum 10-15, which requires agencies to upload IT
inventory information, and OMB Circular A-130, which establishes policy
for the management of federal information resources government-wide.

Several asset management best practices have security implications—
   •   Request and approval process,
   •   Procurement management,
   •   Configuration management (CM),
   •   Vulnerability management, and
   •   Disposal management.


           Management Advisory Report on Cybersecurity

                             Page 5
                  Below is an overview of each asset management best practice.

                  Request and Approval Process

                  The request and approval process is a structured and predetermined series
                  of events that allows for streamlined acquisitions using a standard
                  procedure. In the past, when an IT asset was requested, management
                  would either agree or disagree. Current federal regulations require that
                  work, including security planning, be performed before IT purchases are
                  made, and an approval review is typically performed before assets are
                  purchased.

                  A standardized request and approval process review ensures that the
                  purchase is necessary, is a good investment, and fits with the current
                  security configuration. The review also ensures that any potential new
                  security risks are reviewed and accepted. This review and approval
                  process should include board members from an organization’s financial,
                  functional, IT, and security areas.

                  Procurement Management

                  Procurement management defines the processes used to determine which
                  assets best meet the organization’s needs. For organization-wide
                  purchases, procurement decisions should be made by a team representing
                  different functional areas of the organization. Soliciting input from people
                  with different organizational and functional expertise helps ensure
                  effective procurement decisions.

                  This procurement team might include an executive officer, IT asset
                  manager, IT manager, IT technical specialist, functional manager,
                  functional end-user, helpdesk manager, procurement attorney, and security
                  specialist. The team’s first meeting should review the inventory of assets
                  to provide information on what is currently in use and what is working
                  well, and to report any recurring asset problems. The team builds a
                  business case for each prospective asset purchase, making a value
                  proposition to support the acquisition decision. This team should establish
                  guidelines for standard asset acquisitions and can consider requests for
                  nonstandard assets. This team should be familiar with current
                  procurement regulations as well as security implications. 1




1
 See 48 C.F.R. pts. 1-99 - Federal Acquisition Regulation. Among other things, parts 39 and 52 provide
contract language directing a contractor’s computer security responsibilities (see, e.g., 48 C.F.R. §§39.105,
39.107, and 52.239-1).

                               Management Advisory Report on Cybersecurity

                                                   Page 6
Configuration Management

CM can be defined as establishing and controlling changes made to
hardware and software throughout the life cycle of an information system.
CM for security, referred to as security configuration management (SCM),
manages and controls security configuration items for an information
system. The goal of SCM is to enable security configuration items to
reduce risk.

Several different entities publish security baselines for various IT
products, including the U.S. Government Configuration Baseline, Defense
Information Systems Agency, National Security Agency, and the Center
for Internet Security (CIS). These security baselines provide configuration
settings to “lock down” information systems and software that might
otherwise be vulnerable to attack.

The National Institute of Standards and Technology (NIST) provides
guidance to implement SCM in organizations. NIST Special Publication
(SP) 800-53, Revision 3, has a family of CM security controls (CM-1
through CM-9). NIST SP 800-128, Guide for Security-Focused
Configuration Management of Information Systems, and SP 800-53A,
Revision 1, Guide for Assessing the Security Controls in Federal
Information Systems and Organizations, Building Effective Security
Assessment Plans, provide guidance on implementing SCM controls.
Specifically, NIST SP 800-128 identifies the major phases of SCM and
describes the process of applying SCM practices for information systems,
including (1) planning SCM activities for the organization, (2) identifying
and implementing SCM, (3) controlling and maintaining the configuration
of the information system in a secure state, and (4) monitoring the
configuration of the information system to ensure that the configuration is
not inadvertently altered from its approved state.

The NIST SP 800-53, CM-6 security control requires that agencies
establish and document configuration settings for IT products. The
Defense Information Systems Agency, a component of the Department of
Defense (DOD), has defined baselines called Security Technical
Implementation Guides (STIGs) to lock down information systems and
software that might otherwise be vulnerable to attack. The STIG website
contains links to numerous security baselines for operating systems,
applications, and telecommunication equipment. STIGs can assist
agencies in producing security baselines for the products they use.




          Management Advisory Report on Cybersecurity

                            Page 7
Vulnerability Management

Vulnerability management is the practice of identifying, classifying,
remediating, and mitigating vulnerabilities. This practice generally refers
to software vulnerabilities in computing systems. However, as with CM,
definitions vary in the IT industry, and the lines between CM and
vulnerability management tend to blur. Managing a baseline of security
configuration items can assist with protecting against vulnerabilities.
Mitigating existing vulnerabilities enhances an organization’s security
configuration baseline.

Vulnerability management is achieved by performing vulnerability
assessments. Assessments are typically performed according to the
following steps—
   1. Cataloging assets and capabilities (resources) in a system,
   2. Assigning quantifiable value (or at least rank order) and
      importance to those resources,
   3. Identifying the vulnerabilities or potential threats to each resource,
      and
   4. Mitigating or eliminating the most serious vulnerabilities for the
      most valuable resources.

NIST SP 800-53 also has a risk assessment family of security controls.
These controls require that organizations identify and report
vulnerabilities. Vulnerabilities need to be analyzed and their potential
impact measured. Vulnerabilities should be remediated, mitigated through
compensating controls, or documented with the potential risk to the
organization accepted.

Disposal Management

As part of the asset disposal process, organizations need controls to assess
and, when appropriate, sanitize sensitive information on assets approved
for disposal. For example, computer printers, copy machines, and fax
machines may contain sensitive residual information which, if released,
could have an adverse effect on the organization or individuals whose
personal information is stored on agency assets.

Disposal management also includes transitioning old systems to new ones.
The replacement process must be planned carefully to prevent vital
business data from being lost or compromised. If the asset being retired is




          Management Advisory Report on Cybersecurity

                            Page 8
                  business data, National Archives and Records Administration regulations
                  may apply. 2

                  NIST provides several recommendations and guidelines concerning the
                  secure disposal of IT media and equipment. The NIST SP 800-53,
                  Software Integrity family of security controls instructs organizations to
                  handle and retain both information within and output from information
                  systems in accordance with applicable federal laws, executive orders,
                  directives, policies, regulations, standards, and operation requirements.

                  The NIST SP 800-53, Media Protection family of security controls
                  discusses sanitation requirements of digital and nondigital information
                  system media prior to disposal. NIST SP 800-88, Guidelines for Media
                  Sanitation, includes a list of common media types and recommends
                  destruction procedures.

                  Leveraging Resources

                  Managing assets can be complex and time-consuming. Therefore, using
                  specialized software to automate the process can be beneficial for
                  (1) assessing and managing organization-wide inventories of hardware and
                  software, (2) ensuring compliance with software licenses and other
                  regulatory requirements, and (3) adding value to the disposal process.

                  Specifically, automated discovery of hardware and software identifies
                  what systems are connected to the organization’s network and where they
                  are located. Moreover, an automated software inventory provides an
                  accurate audit of all software applications installed on client computers
                  across the network. An asset management solution can audit this
                  information quickly and then help an organization separate primary
                  applications from operating system and shareware software. It can
                  identify installations of products for license compliance. It can also
                  identify products no longer in use as well as redundant software, which
                  can result in significant cost savings in licensing and maintenance.

                  Furthermore, an automated software inventory tells an agency how
                  equipment is configured and when changes are made. It can also look for
                  software downloaded from the Internet, which can threaten the security
                  and integrity of the network. Identifying such software is increasingly
                  important as the number of Trojan viruses increases. Automated
                  vulnerability programs can detect and report on configuration issues,
                  software weaknesses, and missing security patches, all of which can be
                  exploited to gain access to secure networks and computers. Finally, when

2
  See, e.g., 36 C.F.R. part 1236 for regulations detailing records management requirements for electronic
information.

                              Management Advisory Report on Cybersecurity

                                                  Page 9
hardware and software is retired, the inventory can verify that all affected
assets have been removed from the network.

According to the OMB Fiscal Year 2010 Report to Congress on the
Implementation of The Federal Information Security Management Act
(FISMA) of 2002, the ideal goal of IT asset management capability is to
have 100% of agency assets under an automated asset management system
that captures data about each asset and can provide that data within a short
period of time. Many solutions exist. NIST maintains a list of Security
Content Automation Protocol (SCAP) validated products at
http://nvd.nist.gov/scapproducts.cfm.

Ultimately, responsibility for asset management in an organization lies
with its senior management. It is up to senior management to promote the
organization’s computer security program and ensure that the proper
resources are available.

Recommendations
We recommend that OIGs consider implementing the following practices,
when applicable:

Recommendation #1: As a cost efficiency measure, create baseline
software assets to support working capital fund requirements and leverage
managed and shared services when available.

Recommendation #2: Consider creating an IT purchasing team of
selected individuals from various areas of the organization to ensure that
purchases best meet the organization’s needs and security requirements.




           Management Advisory Report on Cybersecurity

                             Page 10
         Identity, Credential, and Access Management
                  The Federal Identity, Credential, and Access Management (ICAM)
                  Initiative 3 efforts, including those of the IG community, are a key enabler
                  for addressing the Nation’s cybersecurity challenges. In recent years,
                  increasing emphasis has also been placed on improving the physical
                  security of the hundreds of thousands of facilities that the federal
                  government owns and leases. In addition to complex physical and logical
                  cybersecurity threats, the federal government faces significant challenges
                  in carrying out its IT capabilities to enable a level of assurance and
                  electronic service delivery (see figure 1).




                  Figure 1: Federal Identity, Credential, and Access Management Roadmap and
                  Implementation Guidance, Version 1.0, November 20, 2009. Figure copyrighted © 2011,
                  Deloitte Development LLC. All rights reserved. Member of Deloitte Touche Tohmatsu
                  Limited.

                  These challenges lie in the ability to verify the identity of an individual or
                  non-person entity (NPE) in the digital realm and to establish trust in the
                  use of that identity in conducting business. 4 As a result, strong and
                  reliable ICAM capabilities across the entire federal government are a

3
  IDManagement.gov is a one-stop shop for citizens, businesses, and government entities interested in
identity management activities, including topics related to Homeland Security Presidential Directive 12
(HSPD-12); Federal Public Key Infrastructure; Identity, Credential, and Access Management; and
Acquisitions.
4
  NPE is an entity with a digital identity that acts in cyberspace, but is not a human actor. This can include
organizations, hardware devices, software applications, and information artifacts.

                               Management Advisory Report on Cybersecurity

                                                   Page 11
                  critical factor in the success of all mission work. A common,
                  standardized, trusted basis for digital identity and access management is
                  needed to provide a consistent approach to deploying and managing
                  appropriate identity assurance, credentialing, and access control services.
                  The approach must also promulgate implementation guidance and best
                  practices, build consensus through government-wide collaboration, and
                  modernize business processes to reduce agency costs for administering
                  and duplicating identity management. Appendix A presents a sample of
                  general laws, regulations, and policies that affect and, in many cases, have
                  initiated today’s ICAM programs.

                  An ICAM plan integrates programs, processes, technologies, and
                  personnel used to create trusted digital identity representations of
                  individuals and NPEs and binds those identities to credentials that may
                  serve as a proxy in access transactions. Those credentials are then used to
                  provide authorized access to an agency’s resources.

                  Governance

                  The Federal ICAM Initiative is governed by the Federal Chief Information
                  Officers (CIOs) Council, Identity Credential and Access Management
                  Subcommittee, with program support by the General Services
                  Administration (GSA) Office of Government-wide Policy and direct
                  oversight from the OMB. The Identity Credential and Access
                  Management Subcommittee is a subcommittee of the Information Security
                  and Identity Management Committee, which was chartered in December
                  2008 as the principal interagency forum for identifying high-priority
                  security and identity management initiatives, developing
                  recommendations for policies, procedures, and standards to address
                  initiatives, and enhancing the security of federal government networks,
                  information, and information systems. Today, the federal government is
                  strongly interested in unifying these areas and other identity management
                  initiatives to create a comprehensive and integrated approach to ICAM.

                  Identity Management

                  The National Science and Technology Council Subcommittee on
                  Biometrics and Identity Management defines identity management as the
                  combination of technical systems, rules, and procedures that define the
                  ownership, utilization, and safeguarding of personal identity information. 5
                  The primary goal of identity management is to establish a trustworthy
                  process for assigning attributes to a digital identity and to connect that
                  identity to an individual. Identity management includes the processes for
                  maintaining and protecting the identity data of an individual over its life

5
    http://www.biometrics.gov/Documents/IdMReport_22SEP08_Final.pdf

                             Management Advisory Report on Cybersecurity

                                               Page 12
cycle. Many of the processes and technologies used to manage a person’s
identity may also be applied to NPEs.

Today, many system application owners and program managers create a
digital representation of an identity by establishing and setting access
privileges to enable application-specific processes. As a result,
maintenance and protection of the identity is treated as secondary to the
mission associated with the application. Unlike accounts used to log on to
networks, systems, or applications, enterprise identity records are not tied
to job title, job duties, location, or whether access is needed to a specific
system. Those things may become attributes tied to an enterprise identity
record, and may also become part of what uniquely identifies an individual
in a specific application. Access control decisions will be based on the
context and relevant attributes of a user, not solely the user’s identity. The
concept of an enterprise identity is that individuals will have a digital
representation of themselves that can be leveraged across departments and
agencies for multiple purposes, including access control.

A digital identity typically comprises a set of attributes that, when
aggregated, uniquely identify a user within a system or enterprise. To
establish trust in the individual represented by a digital identity, an agency
may also conduct a background investigation. Attributes about an
individual may be stored in various authoritative sources within an agency
and linked to form an enterprise view of the digital identity. This digital
identity may then be granted physical and logical access to applications
and removed when access is no longer required.

With the establishment of an enterprise identity, it is important that
policies and processes be developed to manage the life cycle of each
identity. Management of an identity includes—
   •   The framework and scheme for establishing a unique digital
       identity,
   •   The ways identity data will be used,
   •   The protection of personally identifiable information,
   •   Controlling access to identity data,
   •   The policies and processes for management of identity data,
   •   Developing a process for remediation (i.e., solving issues or
       defects),
   •   Sharing authoritative identity data with applications that leverage
       it, and
   •   Revoking an enterprise identity.
As part of the framework for establishing a digital identity, diligence
should be employed to limit data stored in each system to a set of

           Management Advisory Report on Cybersecurity

                             Page 13
                  attributes required to define the unique digital identity and still meet the
                  requirements of integrated systems. A balance is needed between
                  information stored or made available to internal and external systems, and
                  the privacy of individuals.

                  Credential Management

                  According to NIST SP 800-63, a credential is an object that authoritatively
                  binds an identity (and optionally, additional attributes) to a token
                  possessed and controlled by a person. 6 Credential management supports
                  the life cycle of the credential itself. In the federal government, examples
                  of credentials include smart cards, private/public cryptographic keys, and
                  digital certificates. The policies around credential management, from
                  identity proofing to issuance to revocation, are fairly mature compared to
                  the other parts of ICAM. Personal Identity Verification (PIV) standards
                  are found in Federal Information Processing Standards (FIPS) Publication
                  201-1 and NIST SP 800-73-3 (hyperlinks found in appendix A). Federal
                  Public Key Infrastructure (PKI) Common Policy and DOD Common
                  Access Cards are examples of documents that are important for agency-
                  specific credential implementations. Today, approximately 5 million PIV
                  cards have been issued to federal employees and contractors (see figure 2).


                                   Current Status - HSPD-12
                               Credentials Issued as of June 1, 2011


                    Credentials Issued to         Credentials Issued            Total Credentials
                    Federal and Military              to Federal                  Issued to All
                        Employees                    Contractors                 Employees and
                                                                                  Contractors
                       4,151,358 (88%)               842,946 (81%)
                                                                                 4,994,304 (87%)




                  Figure 2: PIV cards data compiled from IDManagement.gov. Agency-specific status
                  may be located at http://www.whitehouse.gov/omb/e-gov/hspd12_reports/. The
                  percentages represent the percentage of each category obtaining credentials.



6
  The credentialing process principles and elements can also be applied for NPE digital identities; however,
steps may vary during the credential issuance process (e.g., sponsorship, adjudication) based on an
organization’s security requirements.

                               Management Advisory Report on Cybersecurity

                                                  Page 14
Credentialing consists of an authorized employee sponsoring an individual
or entity and justifying the need for the credential. Next, the individual
enrolls for the credential, a process that typically consists of identity
proofing and the capture of biographic and biometric data. The types of
data required may depend on the credential type and the usage scenario.
This step may be automatically completed based on data collected and
maintained through identity management processes and systems, since
enrollment for a credential requires much of the same data collection that
is required as part of identity management. Subsequently, a credential will
be produced and issued to the individual or NPE. As in the case of
enrollment, these processes will vary based upon the credential type in
question. Identity proofing, production, and issuance requirements for
other credential types typically include a subset of the processes or
technologies but follow the same general principles. Finally, a credential
must be maintained over its life cycle, which might include revocation,
reissuance/replacement, reenrollment, expiration, personal identification
number reset, suspension, or reinstatement.

A key distinction in the life cycle management of credentials versus
identities is that credentials expire. The attributes that form one’s digital
identity may change over time, but one’s identity does not become invalid
or terminated from a system perspective. Credentials, however, are
usually valid for a predefined period, typically for five years. An example
is certificates issued to an individual that expire based on the issuer’s PKI
Common Policy. While the identity of an individual does not change, the
certificates associated with that individual can be revoked and new ones
issued. This does not have a bearing on the individual’s identity, as
credentials are a tool that provides varying levels of assurance about the
authentication of an individual.

Another key aspect of credential management is the security and
protection of credentials, from issuance to termination. The trust in a
credential depends on a multilayered approach to security that protects the
credential as well as who can use the credential from attack. ICAM hinges
on the level of trust in a credential and the uniformity of security and
integrity across the security architecture in order to retain that trust
throughout the use of the credential.

When the Working Group surveyed the IG community regarding the use
of PIV card capabilities, the responses demonstrate OIGs are (1) currently
using the PIV card for physical and/or logical access, (2) planning to use
the PIV card for physical and/or logical access, (3) awaiting their parent
agencies’ direction on PIV use, and (4) currently have no plans to
implement PIV card technology (see figure 3).



           Management Advisory Report on Cybersecurity

                             Page 15
                      PIV Card Technology
     No Current
       Plans
        (7%)                      No Data
                                   Given
                                   (22%)



             Dependent
             on Agency
                                              Currently
             Direction
                                               Using
               (17%)
                                               (34%)


                         Planned Use
                            (20%)




Figure 3: Results from the Cybersecurity Working Group survey. See appendix B for a
summary of survey results.

Access Management

Access management is the management and control of the ways in which
entities are granted access to resources. The purpose of access
management is to ensure that the proper identity verification is made when
an individual attempts to access security-sensitive buildings, computer
systems, or data. It has two areas of operations: logical and physical
access. Logical access is the access to an IT network, system, service, or
application. Physical access is the access to a physical location such as a
building, parking lot, garage, or office. Access management leverages
identities, credentials, and privileges to determine access to resources by
authenticating credentials. After authentication, a decision as to whether a
person is authorized to access the resource can be made. These processes
allow agencies to obtain a level of assurance in the identity of the
individual by—

    •   Ensuring that all individuals attempting access are properly
        validated (authentication),
    •   Ensuring that all access to information is authorized
        (confidentiality),
    •   Protecting information from unauthorized creation, modification,
        or deletion (integrity),

           Management Advisory Report on Cybersecurity

                              Page 16
   •   Ensuring that authorized parties are able to access needed
       information (reliability, maintainability, and availability), and
   •   Ensuring the accountability of parties when gaining access and
       performing actions (nonrepudiation).

In addition, access control sets the stage for activities outside of the
traditional access control paradigm. One corollary to access management
is the ability to ensure that all individuals attempting access have a
genuine need. This is tied to authentication and authorization, but also to
the business rules surrounding the data themselves. Privacy is provided by
ensuring confidentiality and by refraining from collecting more
information than necessary.

A key aspect of access management is the ability to leverage an enterprise
identity for entitlements, privileges, multifactor authentication, roles,
attributes, and different levels of trust. Logical and physical access are
often viewed as the most significant parts of ICAM from a return-on-
investment perspective. To maximize that return, a successful access
management solution is dependent on identity, credentials, and attributes
for making informed access control decisions, preferably through
automated mechanisms. Without an access management solution, the
vision and value of an identity access management initiative are
diminished.

Recommendations
The Federal CIO Council, Information Security and Identity Management
Committee, highlights some high-level considerations in its Federal
Identity, Credential, and Access Management Roadmap and
Implementation Guidance, Version 1.0. We recommend that OIGs
consider the following guidance and practices, when applicable:

Recommendation #3: Refer to IDManagement.gov, a one-stop shop for
citizens, businesses, and government entities interested in identity
management activities, including topics related to HSPD-12; Federal PKI;
identity, credential, and access management; and acquisitions.

Recommendation #4: Identify an application to employ two-factor
identification to protect information based on NIST SP 800-63 guidance.

Recommendation #5: Evaluate personnel processes for hiring and
separating employees.




          Management Advisory Report on Cybersecurity

                            Page 17
        Incident Detection and Handling
                 The IG community needs effective computer incident prevention,
                 detection, and handling capabilities. Understanding that not all IT
                 incidents can be prevented is critical to understanding the threats that face
                 our networks today. An incident detection, reporting, and response
                 capability is therefore necessary for effective network security.

                 Reports of security incidents from federal agencies are on the rise,
                 increasing by more than 650% over the past 5 years. 7 The growing threats
                 and increasing number of reported incidents highlight the need for a robust
                 system of countermeasures to prevent incidents from occurring and to
                 quickly detect and respond to incidents that cannot be prevented.
                 However, serious and widespread information security control deficiencies
                 continue to place federal assets at risk of misuse, sensitive information at
                 risk of inappropriate disclosure, and critical operations at risk of
                 disruption. Therefore, it is imperative that federal agencies implement an
                 incident prevention, detection, and response program to ensure business
                 continuity. Incident prevention includes, but is not limited to, boundary
                 defenses, asset inventories, configuration management, user account
                 management, and automated monitoring to provide real-time security
                 status reporting. Incident detection and response covers automated
                 detection, analysis, containment, eradication, and recovery.

                 IT security incidents, whether deliberate or unintentional, threaten the
                 confidentiality, integrity, or availability of information and information
                 resources. When an information security-related incident is suspected or
                 discovered, personnel must immediately take steps to protect the
                 information resource(s) at risk. Agencies must develop an incident
                 response capability that enables coordinated efforts of a defined incident
                 response team to respond to incidents. When an incident has been
                 identified, the incident response team must have the knowledge and skills
                 to follow standard procedures.




7
 Cyber Security: Continued Attention Needed to Protect Our Nation’s Critical Infrastructure and Federal
Information Systems (GAO-11-463T), March 16, 2011.

                             Management Advisory Report on Cybersecurity

                                                Page 18
                 Incident Notification, Reporting, and Immediate Responses: A
                 Government “Standard”

                 Many branches of the U.S. government, including the DOD, DHS, and the
                 Intelligence Community, have drafted guidelines they believe should be
                 used for effective network security. All the publications currently
                 available from these entities are invaluable resources for designing and
                 establishing network security plans and incident related procedures.
                 Among agencies, there are still many differences in what the “standard” is
                 for responding to incidents and how business should be conducted.

                 NIST has been developing a generalized standard for computer security
                 incident handling that is applicable to any agency’s architecture or
                 network environment: NIST SP 800-61, Revision 1, Computer Security
                 Incident Handling Guide.

                 NIST SP 800-61 provides guidelines for IT incident handling, particularly
                 for analyzing incident-related data and determining the appropriate
                 response to each incident. Because effective incident response is a
                 complex undertaking, establishing a successful incident response
                 capability requires substantial planning and resources. Continually
                 monitoring threats through intrusion detection systems, full-time network
                 packet capture, and other mechanisms is essential. 8

                 As NIST SP 800-61 evolves into a potential Government Standard for
                 incident response, it will need to keep up with the threats and trends. It is
                 an effective starting point for the establishment of network incident
                 response guidelines when combined with creating partnerships with
                 agencies that have well-established programs in order to learn from their
                 mistakes and grow from their innovation.

                 Establishing clear procedures for assessing the current and potential
                 business impact of incidents is critical, as is implementing effective
                 methods of collecting, analyzing, and reporting data. Each agency will
                 need to understand the specific threats it faces, its critical assets and data,
                 and to develop the appropriate tools for handling incidents. In the past,
                 protection of agency data and network security was focused on quick
                 remediation and reliance on antivirus and firewall technology. In the
                 current cyber landscape, it can be impossible to get ahead of the threat,
                 and active network investigations, network traffic control, and monitoring
                 are often the only defense.


8
  Packet capture uses a computer program or a piece of computer hardware that can intercept and log traffic
passing over a digital network or part of a network. As data streams flow across the network, the sniffer
captures each packet and, if needed, decodes the packet's raw data, showing the values of various fields in
the packet, and analyzes its content.

                              Management Advisory Report on Cybersecurity

                                                  Page 19
                 Incident Prevention

                 Securing Network Boundaries: The First Line of Defense Against
                 Incidents

                 Most federal agencies have Internet-accessible computers on their
                 networks in order to communicate with external business parties and with
                 the public. These computers are prime targets for exploitation and thus
                 are highly sought after by hackers. For example, organized crime groups
                 and nation-states continuously scan the Internet for publicly accessible
                 computers on federal agency networks. After finding and then exploiting
                 a vulnerability on a publicly accessible computer, the cybercriminals use
                 the exploited computer as a means to penetrate deeper into the agency’s
                 network to steal sensitive data or disrupt operations.

                 Thus, to prevent incidents resulting from unauthorized access, agencies
                 need a system of defenses to both control the flow of traffic through their
                 network borders and inspect its content. These boundary defenses must be
                 multilayered—relying on, for example, firewalls, proxy servers, and
                 network-based intrusion detection systems 9 10—to prevent or immediately
                 detect intrusions into the agency’s computer networks.

                 Configuration Management: Ensuring That Network Devices Are
                 Securely Configured

                 CM is the process of establishing and controlling changes made to
                 hardware and software throughout the life cycle of an information system.
                 Often, computer operating systems are configured by the vendor for ease
                 of deployment and ease of use rather than for security, leaving them
                 exploitable in their default state. Hackers are aware of this industry
                 practice and use automated attack programs to continuously scan federal
                 agency networks for systems with vendor-configured (vulnerable)
                 operating systems, which they can immediately exploit.

                 To reduce the number of incidents that result from exploiting this
                 condition, the CIS has published recommended configuration settings,
                 called benchmarks, for securing a wide variety of computer operating
                 systems and other devices such as firewalls and routers. 11 A growing
9
  A firewall is a set of IT resources that separate and protect computer systems and data on an
organization’s internal networks from unauthorized access from an external network, such as the Internet.
10
   A proxy server is a computer system that acts as an intermediary for requests from local computers
seeking resources or services from untrusted sources, such as from computers on the Internet. Key security
features provided by proxy servers include filtering for malicious content and denying access to websites
that are known sources of malware.
11
   According to CIS, its benchmarks are consensus-based, best practice security configuration guides both
developed and accepted by government, business, industry, and academia. (See www.cisecurity.org for
more information.) However, reference to CIS, a private organization, is made for informational purposes

                              Management Advisory Report on Cybersecurity

                                                 Page 20
                  number of federal agencies, including the National Aeronautics and Space
                  Administration, have adopted the benchmarks as best practices for the
                  secure configuration of computer operating systems and other network-
                  attached devices.

                  In addition to CIS benchmarks, NIST through its National Checklist
                  Program has defined a repository of vendor-developed checklists
                  (benchmarks) for the secure configuration of computer operating systems
                  and other network-attached devices. Moreover, the program has
                  addressed the need for automating IT security processes through the SCAP
                  to enable security tools to automatically check configuration by using the
                  checklists.

                  Controlling Data Access Through Effective User Account Management

                  Sensitive data occur widely throughout federal computer systems and
                  networks and include personally identifiable information, information
                  controlled by International Traffic in Arms Regulations, and Export
                  Administration Regulations, as well as third-party intellectual property.
                  Accordingly, agencies must implement effective safeguards to prevent the
                  loss or theft of these sensitive data.

                  For example, without proper safeguards such as restricting administrator
                  or super-user account privileges and ensuring that only authorized
                  personnel have system access, sensitive information, including law
                  enforcement reports and personally identifiable information, could be
                  disclosed for purposes of espionage, identity theft, or other types of
                  criminal activity. 12 According to the System Administration Networking
                  and Security (SANS) Institute, 13 a widely recognized authoritative source
                  for best practices in IT security, the misuse of administrator privileges is
                  the method most widely used by attackers to steal sensitive data from
                  federal agencies. This problem is exacerbated when many users
                  unnecessarily have administrative privileges. In such an environment,
                  each account becomes a potential target for an attacker. Once an
                  administrator account is compromised, the attacker has full access to the
                  victim’s machine, or to many machines when the attack involves accounts
                  with domain administration privileges.


only and does not constitute an endorsement by CIGIE or any federal agency. Moreover, it does not imply
that its recommendations are necessarily the most appropriate or best available.
12
   The super-user, unlike normal user accounts, can operate without limits, and misuse of the super-user
account may result in spectacular disasters. User accounts are unable to destroy the system by mistake, so it
is generally best to use normal user accounts whenever possible, unless you especially need the extra
privilege.
13
   Reference to the SANS Institute, a private organization, is made for informational purposes only and
does not constitute an endorsement by CIGIE or any federal agency. Moreover, it does not imply that its
recommendations are necessarily the most appropriate or best available.

                               Management Advisory Report on Cybersecurity

                                                  Page 21
                 A second common way attackers gain unauthorized system access is by
                 exploiting legitimate but inactive user accounts. This can occur when
                 employees separate from an agency but their user accounts remain active.
                 To prevent security incidents related to ineffective account management, it
                 is necessary to (1) limit employee access to system rights and permissions
                 employees need to perform their official duties, and (2) immediately
                 deactivate all user accounts when employees separate from an agency.

                 Knowing What Is on the Network: The Need for Inventories of
                 Networked Devices

                 An accurate and up-to-date inventory of an agency’s network-attached
                 devices, controlled by active monitoring and configuration management,
                 can reduce the chance of attackers finding unauthorized and unprotected
                 systems to exploit. For example, one common attack exploits the
                 condition when new hardware is installed on a network one evening and
                 not configured and patched with appropriate security updates until the
                 following day. Attackers from anywhere in the world may quickly find
                 and exploit such systems that are Internet-accessible. Furthermore, even
                 in internal network systems, attackers who have already gained access
                 may hunt for and compromise additional improperly secured systems.
                 Some attackers use the local nighttime window to install backdoors on
                 systems before they are hardened. 14

                 Attackers also frequently look for experimental or test systems that are
                 intermittently connected to the network but not included in an
                 organization’s standard asset inventory. Such experimental systems tend
                 not to have as thorough security hardening or defensive measures as other
                 systems on the network. Although these test systems do not typically hold
                 sensitive data, they offer an attacker an avenue into the organization and a
                 launching point for deeper network penetration.

                 According to the respondents to the Working Group’s survey, the majority
                 of the IG community maintains a complete and accurate list of hardware
                 and software applications supporting IG community programs and
                 operations (see figure 4).




14
  A backdoor in a computer system is a method of bypassing normal authentication, securing remote
access to a computer, obtaining access to plaintext, and so on, while attempting to remain undetected. The
backdoor may take the form of an installed program.

                              Management Advisory Report on Cybersecurity

                                                  Page 22
                                    IT Asset Inventory Maintained



                                      No Data
                                    Given (10%)

                                                                Yes (75%)
                                     No (15%)




                 Figure 4: Results from the Cybersecurity Working Group survey.

                 Automating the Continuous Monitoring Program

                 Ensuring that federal information systems are adequately protected against
                 ever-increasing threats requires mechanisms to establish and then
                 continuously monitor (audit) key security controls. The goal of
                 continuous monitoring is to determine whether a system’s key IT security
                 controls continue to be effective over time in light of changes to hardware
                 or software. A well-designed and well-managed continuous monitoring
                 program can transform an otherwise static security control assessment and
                 risk determination process into a dynamic process that provides essential
                 information about a system’s security status on a real-time basis. This, in
                 turn, enables officials to take timely risk mitigation actions and make risk-
                 based decisions regarding the operation of the information system.

                 Automating the control monitoring process is essential because of the size,
                 complexity, volatility, and interconnected nature of federal information
                 systems. The SANS Institute has identified 20 critical IT security controls
                 organizations should implement for effective cyber defense. 15 The SANS
                 Institute recommends that federal agencies examine all 20 control areas
                 against the current agency status and develop an agency-specific plan to
                 implement the controls as a key component of an overall IT security
                 program.

15
  “20 Critical Controls for Effective Cyber Defense: Consensus Audit Guidelines,” SANS Institute,
November 2009. Reference to the SANS Institute, a private organization, is made for informational
purposes only and does not constitute an endorsement by CIGIE or any federal agency. Moreover, it does
not imply that its recommendations are necessarily the most appropriate or best available.

                             Management Advisory Report on Cybersecurity

                                                Page 23
                  Incident Detection

                  Incidents can occur from a myriad of complex sources and causes.
                  Therefore, personnel monitoring an agency’s IT infrastructure must have
                  sufficient technical knowledge and experience to identify and analyze
                  events and other incident-related data. Types of cybersecurity-related
                  incidents include malicious code such as viruses, worms, and Trojan
                  horses; denial-of-service attacks; unauthorized access; and inappropriate
                  usage. 16 17

                  Indications of an incident can occur at different sources and levels. Some
                  examples of incident indications include port-scanning activities reported
                  by the intrusion detection system/intrusion prevention system; multiple or
                  persistent failed login attempts from an unfamiliar system; unusual
                  activity at an external web server; unusual deviation in network traffic
                  flows; antivirus software alerts; user complaints of slow access or
                  response; filenames with unusual characters; configuration changes in
                  audit log files; and unusual numbers of bounced e-mails with suspicious
                  content.

                  Information about zero-day exploits and known threats and vulnerabilities
                  can also be a source for incident detection. 18 The possibility of incidents
                  attributed to the “insider threat” should also be considered. Unauthorized
                  access by insiders should prompt stronger policies concerning background
                  investigations for personnel and stronger security controls on internal
                  networks.

                  Incident Handling

                  According to OMB Memorandum 07-16, dated May 22, 2007, entitled
                  Safeguarding Against and Responding to the Breach of Personally
                  Identifiable Information, “when faced with a security incident, an agency
                  must be able to respond in a manner protecting both its own information
                  and helping to protect the information of others who might be affected by
                  the incident. To address this need, agencies must establish formal incident

16
   Viruses, Worms, and Trojan Horses are all malicious programs that are purposely written to cause
damage to a computer and/or information on the computer. They are also capable of slowing down the
Internet, and they can use an individual’s computer to spread themselves to friends, family, coworkers, or
others.
17
   A denial-of-service attack is an attempt to make a computer resource unavailable to its intended users.
Although the means to carry out, motives for, and targets of a denial-of-service attack may vary, it
generally consists of the concerted efforts of a person, or multiple people to prevent an Internet site or
service from functioning efficiently or at all, temporarily or indefinitely.
18
   A zero-day exploit is one that takes advantage of a security vulnerability on the same day the
vulnerability becomes generally known. There are zero days between the time the vulnerability is
discovered and the first attack.

                              Management Advisory Report on Cybersecurity

                                                  Page 24
                   response mechanisms. To be fully effective, incident handling and
                   response must also include sharing information concerning common
                   vulnerabilities and threats with those operating other systems and in other
                   agencies. In addition to training employees on how to prevent incidents,
                   all employees must also be instructed in their roles and responsibilities
                   regarding responding to incidents should they occur.” Possible metrics for
                   incident-related data could include the number of incidents handled, time
                   per incident, and assessments of each incident.

                   Best Practices for Incident Response, Network Defense, and Remediation

                   According to NIST SP 800-61, effective incident response has four
                   phases: preparation; detection and analysis; containment, eradication, and
                   recovery; and post-incident activity (see figure 5).




                   Figure 5: The Incident Response Life Cycle. Source: NIST SP 800-61, p. 3-1.

                   The initial phase involves establishing and training an incident response
                   team, and acquiring the necessary tools and resources. During
                   preparation, the organization also attempts to limit the number of incidents
                   by selecting and implementing a set of controls based on the results of risk
                   assessments. However, residual risk will inevitably persist after controls
                   are implemented; furthermore, no control is foolproof. Detection of
                   security breaches is thus necessary to alert the organization whenever
                   incidents occur. In keeping with the severity of the incident, the
                   organization can act to mitigate the impact of the incident by containing it
                   and ultimately recovering from it. After the incident is handled, the
                   organization issues a report that details the cause and cost of the incident
                   and the steps the organization should take to prevent future incidents. 19

                   Security Breach Notification

                   OMB Memorandum 07-16 requires agencies to develop and implement a
                   breach notification policy. The term “personally identifiable information”
                   refers to information that can be used to distinguish or trace an
                   individual’s identity. It includes information such as name, Social
                   Security number, and biometric records. This information can be used
                   alone or combined with other personal or identifying information that may

19
     NIST SP 800-61, Computer Security Incident Handling Guide.

                               Management Advisory Report on Cybersecurity

                                                 Page 25
                 be linked or linkable to a specific individual, such as date and place of
                 birth and mother’s maiden name. Agencies must report incidents
                 involving personally identifiable information to the United States
                 Computer Emergency Readiness Team.

                 External Notification of a Security Breach

                 Each agency should develop a breach notification policy and plan
                 comprising the six elements discussed in OMB Memorandum 07-16 and
                 listed below—
                     •    Whether breach notification is required
                     •    Timeliness of the notification
                     •    Source of the notification
                     •    Contents of the notification
                     •    Means of providing the notification
                     •    Who receives notification (public outreach v. internal
                          communications)

                 When implementing the policy and plan, the agency head will make final
                 decisions regarding breach notification. To ensure adequate coverage and
                 implementation of the plan, each agency should establish an agency
                 response team that includes the program manager of the program
                 experiencing the breach; the CIO, Chief Privacy Officer or Senior Official
                 for Privacy; Communications Office; Legislative Affairs Office; General
                 Counsel; and the Management Office, which includes budget and
                 procurement functions. 20

                 Business Impact, Damage Assessment, and Lessons Learned

                 After the incident is handled, the agency should prepare a business impact
                 and damage assessment. This assessment describes the cause and cost of
                 the incident and the required steps to prevent future incidents. Items to
                 consider when calculating the cost include damage to the agency’s
                 reputation; lost revenue; lost service and ability to operate; cost to
                 remediate or replace information; cost to repair or replace damaged
                 hardware; and potential fines, lawsuits, and legal fees. Conducting a
                 “lessons learned” session with all involved personnel after an incident can
                 help strengthen security measures while also improving the incident-
                 handling process.


20
  “Safeguarding Against and Responding to the Breach of Personally Identifiable Information”
(OMB Memorandum 07-16), May 22, 2007.

                             Management Advisory Report on Cybersecurity

                                                Page 26
Results of CIGIE Cybersecurity Working Group Survey

To assess the IG community’s incident detection and handling capability,
we conducted a survey to identify common practices for identifying,
containing, and responding to cybersecurity events. Survey results
identified a number of areas where OIG security practices can be
improved to enhance incident detection and handling capabilities.
Specifically, survey results identified the following challenges—
   •   Thirty-one percent of respondents have not implemented incident
       detection and handling policies and procedures consistent with
       NIST SP 800-61, Computer Security Incident Handling Guide.
   •   Fifty-four percent of respondents do not periodically test their
       ability to identify, contain, and respond to cybersecurity events in
       accordance with local policy and procedures. Ineffective testing of
       incident detection and handling procedures could prevent OIGs
       from identifying and responding to system intrusion attempts in a
       timely manner.
   •   Forty percent of respondents have not implemented the capability
       to monitor their systems and networks for unauthorized access.
       Additionally, respondents do not have security event correlation
       capabilities to identify trends related to network intrusions or
       intrusion attempts.
   •   Twenty-seven percent of respondents do not periodically review
       system audit logs to identify unauthorized access attempts. Such
       reviews are critical for determining individual accountability,
       reconstructing security events, and identifying system performance
       issues.
   •   Seventeen percent of respondents have not implemented
       encryption controls to protect sensitive OIG data transmitted via
       email or to protect OIG data “at rest” from unauthorized access or
       disclosure.
   •   Seventeen percent of respondents do not have an accurate
       inventory of hardware, software, or applications supporting OIG
       critical operations. A complete list of hardware and software
       components is critical for protecting OIG systems in the event of a
       cybersecurity incident.




          Management Advisory Report on Cybersecurity

                            Page 27
                 Recommendations
                 We recommend that OIGs consider implementing the following practices,
                 when applicable:

                 Recommendation #6: Review CIS or other appropriate benchmarks for
                 the secure configuration of critical network devices, including computer
                 servers, firewalls, routers, and switches.

                 Recommendation #7: Monitor user account privileges for key OIG
                 systems and limit privileged (e.g., administrator, superuser) system access
                 to as few individuals as possible.

                 Recommendation #8: Implement a continuous security control
                 monitoring program for key IT security controls, such as operating system
                 configurations, system vulnerabilities, and software patch levels.


        Scalable Trustworthy Systems
                 Due to differing IT models in operation, the IG community must be aware
                 of the concepts of trust, scale, and composition when developing and
                 implementing information systems. A clear understanding of these
                 concepts is necessary so that organizations can maintain and improve the
                 security posture of their IT environment when confronted with the
                 adoption of emerging technologies, the demand for information sharing,
                 and management of the technology refresh cycle. 21

                 According to A Roadmap for Cybersecurity Research, released in 2009,
                 trustworthiness is a multidimensional measure of the extent to which a
                 system is likely to satisfy each of the following elements: system
                 integrity, availability, survivability, data confidentiality, guaranteed real-
                 time performance, accountability, attribution, and usability. Definitions of
                 what trust means for each element and well-defined measures against
                 which trustworthiness can be evaluated are fundamental to developing and
                 operating trustworthy systems. 22

                 As part of trustworthiness, IGs should identify Mission Critical (MC)
                 applications and the infrastructure behind them. In the Continuity of
                 Operations Plan (COOP) exercises that the DHS OIG participated in, all
                 MC applications were identified but did not include all required
                 underlying infrastructure to support those applications. IGs should

21
   The technology refresh cycle is the periodic replacement of IT and communications systems in response
to changes in available technology.
22
   A Roadmap for Cybersecurity Research, Department of Homeland Security, November 2009.

                              Management Advisory Report on Cybersecurity

                                                 Page 28
                  recognize that it is critical to ensure that the disaster recovery
                  infrastructure provides the same level of trust and the same security
                  posture established for the MC applications during normal operations.
                  This can be accomplished through architectural principles for the design
                  and implementation of trustworthy, scalable systems. This makes
                  emergency preparedness an extra requirement for trusted systems that can
                  be addressed during the design phase. Designing systems for emergency
                  upfront avoids the need to retrofit security measures after the disaster
                  infrastructure has been already deployed. This also guarantees senior
                  leadership the same level of risk that they are accustomed to during
                  normal operations, removing concerns outside of the emergency at hand.

                  Scalability is the ability to satisfy given requirements as computer systems
                  and networks expand in functionality, capacity, complexity, and scope of
                  trustworthiness. Systems must be designed with scalability in mind
                  because experience shows that scalability typically cannot be later
                  retrofitted into a system. The primary concern of this area is scalability
                  that preserves or enhances trustworthiness in real systems.

                  Composability is the ability to create systems and applications with
                  predictably satisfactory behavior from components, subsystems, and other
                  systems. To enhance scalability in complex, distributed applications that
                  must be trustworthy, high-assurance systems 23 should be developed from a
                  set of components and subsystems, each of which is itself suitably
                  trustworthy, within a system architecture that inherently supports
                  composition. Composition includes the ability to run software on different
                  hardware, aided by virtualization, operating systems emulation, and
                  portable code. 24 In addition, composition extends beyond the technical
                  aspects of system design, and therefore, system requirements and system
                  evaluations should compose accordingly. It is vital that new systems can
                  be incrementally added, or composed, into a system of systems with some
                  predictable confidence that the trustworthiness of the resulting systems of
                  systems is not weakened. 25

                  While members of the IG community may not be developing large-scale
                  systems themselves, they will rely on services provided by other
                  organizations specializing in these systems and networks. Examples


23
   High-assurance systems offer strong guarantees that the system conforms to specified requirements for
confidentiality, integrity, availability, safety, reliability, maintainability, standards, documentation,
procedures, and regulations.
24
   Virtualization is the use of virtual machines to let multiple network subscribers maintain individualized
desktops on a single, centrally located computer or server. The central machine may be at a residence,
business, or data center. Users may be geographically scattered but are all connected to the central machine
by a proprietary local area network or wide area network or the Internet.
25
   A Roadmap for Cybersecurity Research, Department of Homeland Security, November 2009.

                              Management Advisory Report on Cybersecurity

                                                  Page 29
                  include mobile phone networks, cloud computing services, 26 agency
                  intranets, and the Internet itself. While the IG community may not be
                  responsible for the security of these systems, it is responsible for the
                  security of the data it processes on the systems and must ensure that a
                  sufficient level of trustworthiness is established.

                  The current framework developed to manage the risks to government
                  information imposed by the IT gaps in composability and scalability is
                  FISMA, supplemented by the NIST SP 800 series. However, it remains
                  challenging to ensure the trustworthiness of systems based on whole-
                  system evaluations imposed by FISMA, due to the lack of top-to-bottom
                  and end-to-end analysis as well as the great burden on system
                  administrators.

                  Approaches such as OMB’s Trusted Internet Connection (TIC) and
                  Federal Risk and Authorization Management Program (FedRAMP), from
                  the CIO Council, attempt to alleviate the problem by providing high-
                  assurance systems for Internet connectivity and cloud computing. 27

                  The TIC initiative, headed by OMB and DHS, is a multifaceted plan for
                  improving the federal government’s security posture by reducing external
                  connections, including those to the Internet. This consolidation will result
                  in a common security solution that includes facilitating the reduction of
                  external access points, establishing baseline security capabilities, and
                  validating agency adherence to those security capabilities. Agencies
                  participate in the TIC initiative either as TIC Access Providers (a limited
                  number of agencies that operate their own capabilities) or by contracting
                  with commercial managed trusted Internet protocol service providers
                  through the GSA-managed Networx contract vehicle. 28 This effort
                  addresses agencies’ needs for connectivity by offering a trusted scalable
                  architecture that enhances each individual agency’s security posture. 29

                  According to the survey respondents, there are variations in how OIGs
                  connect to the Internet. Currently, most OIGs connect to the internet
                  through their parent agency (see figure 6).


26
   Cloud computing services cover a wide range of scalable, on-demand infrastructure, service, and
software solutions; it provides computation, software, data access, and storage services that do not require
end-user knowledge of the physical location and configuration of the system that delivers the services.
27
   The Trusted Internet Connection initiative is meant to optimize individual external connections,
including internet points currently in use by the Federal government of the United States.
28
   The GSA website says that the Networx program offers comprehensive, best value telecommunications
providing for new technologies, industry partners, and ways to achieve a more efficient and effective
government. Networx allows agencies to focus their resources on building seamless, secure operating
environments while ensuring access to the best technology industry has to offer.
29
   A scalable architecture is the ability of a system, network, or process, to handle growing amounts of
work in a graceful manner or its ability to be enlarged to accommodate that growth.

                               Management Advisory Report on Cybersecurity

                                                   Page 30
                                      How OIGs Connect to the Internet




                                 OIG deployed Trusted Internet Connection
                                 OIG deployed internet connection, no TIC architecture
                                 Parent agency deployed Trusted Internet Connection
                                 Parent agency deployed internet connection, no TIC architecture
                                 Parent agency provides all internet access
                                 Other


                  Figure 6: Results from the Cybersecurity Working Group survey.

                  Beginning with the fiscal year 2012 budget, OMB requires agencies to
                  consolidate their data centers and target cloud computing platforms as the
                  primary operating model for new IT services. 30 With reduced IT budgets
                  on agencies’ immediate and long-term horizon, they must move to a new
                  business model for delivering IT services. The IG community should
                  focus on cloud computing as a primary option for new IT systems and
                  services.

                  FedRAMP was established to provide a standard approach to assessing
                  and authorizing cloud computing services and products. It allows joint
                  authorizations and continuous security monitoring services for both
                  government and commercial cloud computing systems intended for
                  multiagency use. Joint authorization of cloud providers results in a
                  common security risk model that can be leveraged across the federal
                  government. This model provides a consistent baseline for cloud-based
                  technologies, which ensures that their benefits are effectively integrated

30
  Cloud computing services cover a wide range of scalable, on-demand infrastructure, service, and
software solutions; it provides computation, software, data access, and storage services that do not require
end-user knowledge of the physical location and configuration of the system that delivers the services.

                               Management Advisory Report on Cybersecurity

                                                   Page 31
                  across the various cloud computing solutions currently proposed within
                  the government. The risk model will also enable the government to
                  quickly leverage cloud computer services following the “approve once and
                  use often” method of ensuring that multiple agencies gain the benefit and
                  insight of the FedRAMP’s Authorization and Accreditation to the service
                  provider’s authorization packages. 31

                  NIST SP 800-145 (Draft) defines cloud computing as a model for enabling
                  convenient, on-demand network access to a shared pool of configurable
                  computing resources, such as networks, servers, storage, applications, and
                  services, which can be rapidly provisioned and released with minimal
                  management or service-provider interaction.

                  Cloud computing systems are potentially beneficial for IG community
                  members as they are scalable by design, offering the ability to distribute
                  infrastructure resources rapidly and inexpensively. Cloud computing
                  offers incremental scalability via “on-demand” allocation of computing
                  and network resources that avoids typical system over-engineering and
                  system performance that far exceeds its needs.

                  In addition, cloud computing may be beneficial in other aspects. For
                  example, it would enable the government to contract out many IT
                  computing services. Economies of scale could lower costs as having
                  fewer but better trained people maintaining a few cloud systems should be
                  significantly more efficient than maintaining many small, federal
                  networks. Furthermore, having fewer systems, run by experts, using better
                  hardware and software, may be significantly more secure.

                  Finally, cloud computing permits device independence through the use of
                  virtualization technologies for servers, clients, and applications. Desktop
                  services can be accessed from anywhere through web browsers and virtual
                  remote desktop clients regardless of the client device type (e.g., laptops,
                  smartphones, tablets). Consequently, cloud computing is capable of
                  unifying multiple infrastructures under a common platform. Cloud
                  computing services can be engineered for high reliability through the use
                  of multiple, redundant zones, making the platform suitable for business
                  continuity and disaster recovery. Cloud computing systems can be
                  designed for high assurance without sacrificing their scalability and low
                  cost.

                  Smaller OIGs may benefit most from cloud technologies that provide
                  secure services that they cannot currently support internally. As reflected
                  in figures 7 and 8, survey respondents stated that audit management
                  software packages were fairly standardized within the IG community,

31
     http://www.cio.gov/pages.cfm/page/Federal-Risk-and-Authorization-Management-Program-FedRAMP

                              Management Advisory Report on Cybersecurity

                                                Page 32
while a wide variety of software was used for case management.
However, both audit management software and case management software
could be used as a pilot for a multiagency-use cloud computing system.


                       Audit Management Software


          Other (2%)                     None
                                        (32%)


                                                AutoAudit
                                                 (15%)

                                  TeamMate
                                    (51%)




Figure 7: Results from the Cybersecurity Working Group survey.

                                                  Number of      Percentage of
  Case Management Software                       Respondents     Respondents
  In-house Developed Application                          11           26.82%
  None                                                    12           29.26%
  AutoInvestigation                                        1            2.44%
  Case Management System                                   1            2.44%
  Case Management Tracking System                          1            2.44%
  CaseMap                                                  1            2.44%
  CMTS                                                     1            2.44%
  Concordance                                              1            2.44%
  Law Enforcement Records System                           1            2.44%
  EDS                                                      1            2.44%
  Entellitrack                                             3            7.32%
  I2MS                                                     1            2.44%
  IGCIRTS                                                  1            2.44%
  IG-Ideas                                                 1            2.44%
  Magnum                                                   2            4.88%
  Outsourced                                               1            2.44%
  ProLaw                                                   1            2.44%
  Grand Total                                             41          100.0%

Figure 8: Results from the Cybersecurity Working Group survey.

           Management Advisory Report on Cybersecurity

                              Page 33
Recommendations
We recommend that OIGs consider implementing the following practices,
when applicable:

Recommendation #9: Carefully plan IT systems before deployment.
New systems should enhance and maintain the security posture of the
existing infrastructure and be capable of scaling according to projections.
Requirements should include desired capabilities as well as nonfunctional
requirements for system integrity, availability, survivability, data
confidentiality, accountability, attribution, usability, and other critical
needs.

Recommendation #10: Embrace the TIC architecture to enhance the
security of network communications by ensuring that inbound and
outbound data are properly monitored and secured.

Recommendation #11: Consider applications that could benefit from the
FedRAMP cloud computing model. Finding common ground will
improve efficiency of the OIG IT infrastructure and reduce its IT footprint
and costs.




          Management Advisory Report on Cybersecurity

                            Page 34
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

Presidential Directives and Executive Orders

Homeland Security Presidential Directive-12 (HSPD-12): Policy for a Common
Identification Standard for Federal Employees and Contractors

Signed in 2004, HSPD-12 recognized that various forms of identification can be used to
access secure facilities, which creates a potential risk for terrorist attack. HPSD-12
directed the government to eliminate those variations by creating a mandatory
government standard for secure and reliable forms of identification issued by the
government to employees and contractors. The policy is intended to enhance security,
increase efficiency, reduce identify fraud, and protect personal privacy. It defined
“secure and reliable forms of identification” as being issued based on sound criteria for
verifying an individual’s identity; strongly resistant to fraud and exploitation; rapidly
authenticated electronically; and issued only by providers whose reliability was
established with a specific process. NIST has published a variety of standards associated
with HSPD-12 compliance.

The Comprehensive National Cybersecurity Initiative (CNCI) and The Cyberspace
Policy Review (CPR)
   • CNCI — In January 2008, President George W. Bush initiated the CNCI in
       National Security Presidential Directive 54/HSPD 23 to help secure the Nation in
       cyberspace. Major goals include establishing a front line of defense against
       immediate threats, defending against the full spectrum of threats, and
       strengthening the future cybersecurity environment. An unclassified summary
       describes the 12 initiatives established to achieve those goals. Those initiatives
       include managing the federal enterprise network as a single network enterprise
       with trusted Internet connections; deploying an intrusion detection system of
       sensors; connecting current cyber ops centers to enhance situational awareness;
       defining and developing enduring “leap-ahead” technology, strategies, and
       programs; defining and developing enduring deterrence strategies and programs;
       and defining the federal role for extending cybersecurity into critical
       infrastructure. http://www.whitehouse.gov/cybersecurity/comprehensive-
       national-cybersecurity-initiative

   •   CPR — In 2009, President Obama adopted recommendations set forth in the
       CPR. The CPR “outlines the beginning of the way forward towards a reliable,
       resilient, trustworthy digital infrastructure for the future.” A few of the broad
       policies include leading from the top (e.g., appointing an executive branch
       Cybersecurity Coordinator); sharing responsibility for cybersecurity (e.g., federal
       government working closely with state and local governments and the private
       sector); creating effective information sharing and incident response; and
       encouraging innovation (e.g., establishing identity management mechanisms).
       The White House explains that the CNCI initiatives will evolve and support the
       achievement of many CPR recommendations.
       http://www.whitehouse.gov/assets/documents/Cyberspace_Policy_Review_final.p
       df

                         Management Advisory Report on Cybersecurity

                                           Page 35
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

Selected Office of Management and Budget Circulars and Memorandums

•    OMB Circular A-11, Preparation, Submission, and Execution of the Budget. Part 2,
     Section 31.9, Management improvement initiatives and policies. Budget estimates
     should reflect efforts involving IT investments, E-government projects and strategy,
     commitment to privacy and reduction of improper payments, requirements of the E-
     Government Act, and a comprehensive understanding of OMB policies and NIST
     guidance.
     http://www.whitehouse.gov/sites/default/files/omb/assets/a11_current_year/s31.pdf

•    OMB Circular A-123, Management’s Responsibility for Internal Control. This
     circular provides guidance to federal managers on improving the accountability and
     effectiveness of federal programs and operations by establishing, assessing,
     correcting, and reporting on internal controls. In particular, Appendix III establishes
     that a minimum set of controls be included in information security programs.
     Moreover, each agency’s program must implement policies and standards consistent
     with OMB, Department of Commerce, GSA, and Office of Personnel Management
     issuances. Agency heads are required to report annually on the effectiveness of the
     agency’s security programs. http://www.whitehouse.gov/omb/circulars_a123_rev

•    OMB Circular A-130 Revised, Management of Federal Information Resources.
     The U.S. Federal CIO Council’s Architecture Alignment and Assessment Guide
     (2000) described OMB Circular A-130 as a “one-stop shopping document for OMB
     policy and guidance on information technology management.” It establishes policies
     for the management of federal information resources government-wide, including the
     minimum controls to be included in federal automated information security programs
     and the assignment of federal agency responsibilities for the security of automated
     information. The circular also links agency automated information security programs
     and agency management control systems.
     http://www.whitehouse.gov/omb/circulars_a130_a130trans4/

•    OMB Memorandum 11-11, Continued Implementation of HSPD-12. 32 This
     memorandum outlines a plan of action for agencies that will expedite the executive
     branch’s full use of the credentials for access to federal facilities and information
     systems. http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-
     11.pdf (See also OMB M-05-24.)

•    OMB Memorandum 11-02, Sharing Data While Protecting Privacy. This
     memorandum directs agencies to find solutions that allow data sharing to move
     forward in a manner that complies with applicable privacy laws, regulations, and
     policies. http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-
     02.pdf

32
  HSPD-12 applies to federal employees and contractors and requires (1) completion of background
investigations, (2) issuance of standardized identity credentials, (3) use of the credentials for access to
federal facilities, and (4) use of the credentials for access to federal information systems.

                                Management Advisory Report on Cybersecurity

                                                    Page 36
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

•   OMB Memorandum 10-27, Information Technology Investment Baseline
    Management Policy. This memorandum provides policy direction regarding
    development of agency IT investment (both major and nonmajor investments)
    baseline management policies, and defines a common structure for IT investment
    baseline management policy with a goal of improving transparency, performance
    management, and effective investment oversight.
    http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-
    27.pdf

•   OMB Memorandum 10-15, FY 2010 Reporting Instructions for the Federal
    Information Security Management Act and Agency Privacy Management. This
    memorandum requires agencies to upload monthly inventory data feeds to
    CyberScope starting January 1, 2011. CyberScope is a web application developed by
    DHS in conjunction with the Department of Justice to handle manual and automated
    inputs of agency data for FISMA reporting.
    http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-
    15.pdf

•   OMB Memorandum 08-22, Guidance on the Federal Desktop Core Configuration
    (FDCC). This guidance updates matters in OMB Memorandum 07-11,
    Implementation of Commonly Accepted Security Configurations for Windows
    Operating Systems, and discusses (1) Federal Desktop Core Configuration Major
    Version 1.0; (2) the SCAP validation requirement; (3) compliance, testing, and use of
    SCAP-validated tools for application providers supporting the federal government;
    (4) scope of “desktop” configuration; (5) revisions to part 39 of the Federal
    Acquisition Regulation; (6) the creation of the FDCC change control board; (7)
    updating FISMA guidance for FDCC; and (8) the policy utilization effort.
    http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2008/m08-22.pdf

•   OMB Memorandum 08-05 and OMB Memorandum 08-27
    o Memorandum 08-05, Implementation of Trusted Internet Connections. This
      memorandum announced the TIC initiative to optimize individual network
      services into a common solution for the federal government. The common
      solution facilitates the reduction of external connections, including Internet points
      of presence, to a target of 50. It required agencies to develop a comprehensive
      plan of action and milestones with a target completion date of June 2008.
      http://georgewbush-whitehouse.archives.gov/omb/memoranda/fy2008/m08-
      05.pdf

    o Memorandum 08-27, Guidance for Trusted Internet Connection Compliance.
      This memorandum instructs agencies identified as TIC Access Providers to ensure
      compliance with the TIC initiative, by (1) complying with critical TIC technical
      capabilities per the agencies’ Statement of Capability; (2) continuing reduction
      and consolidation of external connections to identified TIC access points; (3)
      collaborating with the National Cyber Security Division; (4) executing a
                          Management Advisory Report on Cybersecurity

                                            Page 37
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

       memorandum of agreement between DHS and the agency’s CIO; and (5)
       executing a service-level agreement between DHS and the agency’s CIO.
       http://www.whitehouse.gov/sites/default/files/omb/assets/omb/memoranda/fy200
       8/m08-27.pdf

•   OMB Memorandum 07-18, Ensuring New Acquisitions Include Common Security
    Configurations. This memorandum provides recommended language for agencies to
    use in solicitations to ensure that new acquisitions with Windows XP and Vista
    operating systems include configuration settings for FDCC settings discussed in
    M 07-11.
    http://www.whitehouse.gov/sites/default/files/omb/assets/omb/memoranda/fy2007/m
    07-18.pdf

•   OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of
    Personally Identifiable Information. This memorandum requires agencies to develop
    and implement a notification policy for internal and external breaches of personally
    identifiable information. It also requires agencies to develop policies concerning the
    responsibilities of individuals authorized to access personally identifiable
    information.
    http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2007/m07-16.pdf

•   OMB Memorandum 06-16, Protection of Sensitive Agency Information. In addition
    to NIST’s checklist for protection of remote information, this memorandum
    recommends that all departments and agencies take actions including (1) encrypting
    all data on mobile computers/devices that carry agency data unless the data are
    determined to be nonsensitive; (2) allowing remote access only with two-factor
    authentication where one of the factors is provided by a device separate from the
    computer gaining access; (3) using a “time-out” function for remote access and
    mobile devices, requiring user reauthentication after 30 minutes of inactivity; and
    (4) logging all computer-readable data extracts from databases holding sensitive
    information and verifying that each extract including sensitive data has been erased
    within 90 days or that its use is still required.
    http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2006/m06-16.pdf

•   OMB Memorandum 04-04, E-Authentication Guidance for Federal Agencies. This
    memorandum requires agencies to review new and existing electronic transactions to
    ensure that authentication processes provide the appropriate level of assurance. It
    establishes and describes four levels of identity assurance for electronic transactions
    requiring authentication. Assurance levels also provide a basis for assessing
    credential service providers on behalf of federal agencies. The memorandum also
    assists agencies in determining their E-government authentication needs for users
    outside the executive branch. Further, it explains that agency business process
    owners bear the primary responsibility to identify assurance levels and strategies for
    providing them. The responsibilities set forth also extend to electronic authentication


                          Management Advisory Report on Cybersecurity

                                            Page 38
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

     systems. http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy04/m04-
     04.pdf

•    OMB Memorandum 03-22, OMB Guidance for Implementing the Privacy
     Provisions of the E-Government Act of 2002. This memorandum directs agencies to
     conduct reviews of how information about individuals is handled within their agency
     when they use IT to collect new information, or when they develop or buy new IT
     systems to handle collections of personally identifiable information.
     http://www.whitehouse.gov/omb/memoranda_m03-22

•    OMB Memorandum 00-10, OMB Procedures and Guidance on Implementing the
     Government Paperwork Elimination Act (GPEA). This memorandum provides
     executive agencies with the guidance required under sections 1703 and 1705 of the
     GPEA. http://www.whitehouse.gov/omb/memoranda_m00-10/

Selected Federal Policies and Key Initiatives Affecting ICAM Implementation

The authorities and guidelines listed below, 33 as well as others discussed elsewhere in
this report, reflect a small sample of relevant authorities related to ICAM implementation.

•    Privacy Act of 1974 (5 U.S.C. § 552a). The Privacy Act, in general, governs the
     collection, maintenance, use, and dissemination of personal information maintained
     by the federal government. In particular, the act covers systems of records that an
     agency maintains and retrieves by an individual’s name or other personal identifier
     (e.g., Social Security number).

•    Health Insurance Portability and Accountability Act of 1996 (P.L. 104-191)
     (HIPAA). HIPAA protects the privacy of individually identifiable health
     information. The act also provides federal protections for personal health information
     held by covered entities and gives patients an array of rights with respect to that
     information.

•    Government Paperwork Elimination Act of 1998 (P.L. 105-277). GPEA requires
     federal agencies to allow individuals or entities that deal with the agencies the option
     to submit information or transact with the agency electronically, when practicable,
     and to maintain records electronically, when practicable. The act specifically states
     that electronic records and their related electronic signatures are not to be denied legal
     effect, validity, or enforceability merely because they are in electronic form and
     encourages federal government use of a range of electronic signature alternatives.



33
  List extracted from the Federal Chief Information Officers Council and the Federal Enterprise
Architecture, Federal Identity, Credential, and Access Management (FICAM) Roadmap and
Implementation Guidance, Version 1.0, section 2.3.3. (November 10, 2009).
http://www.idmanagement.gov/documents/FICAM_Roadmap_Implementation_Guidance.pdf

                              Management Advisory Report on Cybersecurity

                                                 Page 39
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

•   Electronic Signatures in Global and National Commerce Act of 2000 (P.L. 106-
    229). This act was intended to facilitate the use of electronic records and signatures
    in interstate and foreign commerce by ensuring the validity and legal effect of
    contracts entered into electronically.

•   Executive Order 12977 - Interagency Security Committee. This order established
    the Interagency Security Committee to develop standards, policies, and best practices
    for enhancing the quality and effectiveness of physical security in, and the protection
    of, nonmilitary federal facilities in the United States.

•   Executive Order 13467 - Reforming Processes Related to Suitability for
    Government Employment, Fitness for Contractor Employees, and Eligibility for
    Access to Classified National Security Information. This order was established to
    ensure an efficient, practical, reciprocal, and aligned system for investigating and
    determining suitability for government employment, contractor employee fitness, and
    eligibility for access to classified information.

Selected National Institutes of Standards and Technology Publications

•   NIST SP 800-128, Guide for Security-Focused Configuration Management of
    Information Systems. The publication includes guidelines for implementing CM
    security controls defined in NIST SP 800-53 and security controls related to
    managing the configuration of the system architecture and associated components for
    secure processing, storing, and transmitting of information. See the discussion on
    page 20 of this report for its applicability to configuration management practices.
    http://csrc.nist.gov/publications/nistpubs/800-128/sp800-128.pdf

•   NIST SP 800-73-3, Interfaces for Personal Identity Verification. The guidance
    contains technical specifications to interface with PIV cards to retrieve and use
    identity credentials. The detailed publication comes in four parts: (1) End-Point PIV
    Card Application Namespace, Data Model and Representation; (2) PIV Card
    Application Card Command Interface; (3) PIV Client Application Programming
    Interface; and (4) The PIV Transitional Interfaces & Data Model Specification.
    http://csrc.nist.gov/publications/PubsByLR.html

•   NIST SP 800-61, Revision 1, Computer Security Incident Handling Guide. This
    publication helps organizations mitigate the risks from computer security incidents
    and focuses on detecting, analyzing, prioritizing, and handling computer security
    incidents. http://csrc.nist.gov/publications/nistpubs/800-61-rev1/SP800-61rev1.pdf

•   NIST SP 800-53, Revision 3, Recommended Security Controls for Federal
    Information Systems and Organizations. SP 800-53 includes a family of CM security
    controls. CM-8, Information System Component Inventory, requires organizations to
    develop, document, and maintain a current inventory of the components of an


                          Management Advisory Report on Cybersecurity

                                            Page 40
Appendix A
Reference List of Relevant Guidance, Laws, and Regulations

    information system. http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-
    53-rev3-final_updated-errata_05-01-2010.pdf

•   FIPS PUB 201-1, Personal Identity Verification (PIV) of Federal Employees and
    Contractors. NIST published this Processing Standard to specify the architecture and
    technical requirement for a common identification standard for federal employees and
    contractors. http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
    See also NIST SP 800-73.




                         Management Advisory Report on Cybersecurity

                                           Page 41
Appendix B
Summary of Survey Results

The CIGIE Cybersecurity Working Group surveyed the IG community to solicit input
about the current state of maintaining the integrity of OIG IT systems and carrying out its
IT oversight responsibilities in the IG community. The working group invited 79
members of CIGIE to respond to the survey, which collected (1) demographics regarding
personnel and budget and (2) information regarding various areas of IT. The results from
the 41 survey respondents are summarized below.

General Demographics
1. How many total staff are employed by the OIG?

                                     Number of Respondents         Percentage of Respondents
                                         to Question                      to Question
    1-10 people full-time                   7                               17.1%
    11-50 people full-time                  6                               14.6%
    51-99 people full-time                  4                                9.8%
    100-249 people full-time                6                               14.6%
    250-500 people full time                9                               22.0%
    More than 500 people                    6                               14.6%
    No Data Given                           3                                7.3%
    Grand Total                            41                             100.0%

2. What is the annual OIG budget (including salary and benefits)?

                                     Number of Respondents         Percentage of Respondents
                                         to Question                      to Question
    $250,001 to $500,000                    1                               2.4%
    $500,001 to $999,999                    2                               4.9%
    $1 million to $4,999,999                7                              17.1%
    $5 million to $9,999,999                9                              22.0%
    $10 million to $24,999,999              2                               4.9%
    $25 million to $49,999,999              6                              14.6%
    $50 million to $99,999,999              5                              12.2%
    Over $100 million                       4                               9.7%
    No Data Given                           5                              12.2%
    Grand Total                            41                             100.0%




                          Management Advisory Report on Cybersecurity

                                            Page 42
Appendix B
Summary of Survey Results

3. What is the annual OIG IT budget (including salary and benefits)?

                                    Number of Respondents         Percentage of Respondents
                                        to Question                      to Question
    Less than $100,000                      10                              24.4%
    $100,000 to $250,000                     1                               2.4%
    $250,001 to $499,999                     4                               9.8%
    $500,000 to $999,999                     3                               7.3%
    $1 million to $2,999,999                 6                              14.6%
    $3 million to $9,999,999                10                              24.4%
    $10 million to $24,999,999               2                               4.9%
    No Data Given                            5                              12.2%
    Grand Total                             41                             100.0%

4. Is the OIG IT budget allocated to sub-budgets?

                                    Number of Respondents         Percentage of Respondents
                                        to Question                      to Question
    Yes                                       7                             17.1%
    No                                      30                              73.2%
    No Data Given                             4                              9.7%
    Grand Total                             41                             100.0%

5. Does your OIG

                                    Number of Respondents         Percentage of Respondents
                                        to Question                      to Question
    Have a fully staffed IT group
    which manages the day-to-
    day operations and is
    responsible for maintaining
    and supporting the OIG
    infrastructure?                             12                          29.3%
    Rely on your parent agency to
    provide user and
    infrastructure support?                     11                          26.8%
    Have a hybrid arrangement
    where the OIG and the parent
    agency share user and
    infrastructure support?                     13                          31.7%
    Use a third-party to provide
    user and infrastructure
    support?                                     1                           2.4%
    No Data Given                                4                           9.8%
    Grand Total                                 41                         100.0%



                         Management Advisory Report on Cybersecurity

                                           Page 43
Appendix B
Summary of Survey Results

6. If the OIG has its own IT group, how many full-time equivalents, excluding
   contractors, are, in any way, responsible for supporting or maintaining IT in the OIG?
   Please consider part-time staff in full-time equivalents.

                                     Number of Respondents         Percentage of Respondents
                                         to Question                      to Question
    None                                          5                          12.2%
    One person less than full-time                2                           4.9%
    2 people                                      4                           9.8%
    3-5 people                                    4                           9.8%
    6-10 people                                   6                          14.6%
    11-20 people                                  6                          14.6%
    21-40 people                                  3                           7.3%
    41-80 people                                  1                           2.4%
    No Data Given                                10                          24.4%
    Grand Total                                  41                         100.0%

7. If the OIG has its own IT group, how many contractors does the OIG use to support
   or maintain the OIG’s IT? Please consider part-time contractors in full-time
   equivalents.

                                     Number of Respondents         Percentage of Respondents
                                         to Question                      to Question
    None                                      14                               34.2%
    One contractor                             6                               14.6%
    2 to 5                                     7                               17.1%
    6 to 10                                    3                                7.3%
    More than 20 contractors                   1                                2.4%
    No Data Given                             10                               24.4%
    Grand Total                                  41                          100.0%




                          Management Advisory Report on Cybersecurity

                                            Page 44
Appendix B
Summary of Survey Results

Scalable Trustworthy Systems

Note: For the next two questions, the number of responses is greater than the 41
      respondents because respondents could pick more than one choice.

1.   What technology does the OIG use to support telework policy?

                                      Number of Respondents         Percentage of Respondents
                                          to Question                      to Question
      Laptop                                    34                              25.2%
      Virtual Desktop (CITRIX or
      Remote Desktop)                              17                          12.6%
      Web based services                           18                          13.3%
      Removable storage
      (e.g., thumb drives)                         23                          17.0%
      Physical Tokens                              21                          15.6%
      Virtual Tokens                                5                           3.7%
      Smart Cards                                   6                           4.4%
      Encrypted Storage on Device                   1                           0.7%
      Mobile Device                                 2                           1.5%
      Remote Access Server                          1                           0.7%
      Virtual Private Network                       3                           2.2%
      No Data Given                                 4                           3.1%
      Grand Total                                 135                         100.0%

2.   What architecture and provider is used for Internet connectivity?

                                      Number of Respondents         Percentage of Respondents
                                          to Question                      to Question
      OIG-deployed TIC                           1                                2.1%
      OIG-deployed Internet
      connection, no TIC
      architecture                                     2                        4.3%
      Parent agency-deployed
      Trusted Internet Connection                  16                          34.1%
      Parent agency-deployed
      Internet connection, no TIC
      architecture                                     5                       10.6%
      Parent agency provides all
      Internet access                              19                          40.4%
      No Data Given                                 4                           8.5%
      Grand Total                                  47                         100.0%




                           Management Advisory Report on Cybersecurity

                                             Page 45
Appendix B
Summary of Survey Results


Identity, Credential, and Access Management
1.   Has the OIG implemented a Federal ICAM Program Office or budget line item to
     support federal ICAM?

                                       Number of Respondents       Percentage of Respondents
                                           to Question                    to Question
      Yes                                        10                            24.4%
      No                                         27                            65.85%
      No Data Given                               4                              9.75%
      Grand Total                                 41                          100.0%

2.   Has the OIG supplemented OMB Memorandum 05-24, FIPS 201, and NIST guidance
     with its own policies, directives, or governance procedures to support federal ICAM?

                                       Number of Respondents        Percentage of Respondents
                                           to Question                     to Question
      Yes                                         6                             14.6%
      No                                         30                             73.2%
      No Data Given                               5                             12.2%
      Grand Total                                 41                          100.0%

3.   Does the OIG use PIV credentials for network/domain authentication?

                    Number of Respondents Percentage of Respondents
                        to Question              to Question
      Yes                      10                     24.4%
      No                       27                     65.8%
      No Data Given             4                       9.8%
      Grand Total                 41                          100.0%

4.   Has the OIG met all of the details in OMB directives for implementing HSPD-12 and
     federal ICAM?

                                       Number of Respondents        Percentage of Respondents
                                           to Question                     to Question
      Yes                                         10                           24.4%
      No                                          23                           56.1%
      No Data Given                                8                           19.5%
      Grand Total                                 41                          100.0%



                          Management Advisory Report on Cybersecurity

                                            Page 46
Appendix B
Summary of Survey Results

Incident Detection and Handling
1. Does the OIG have policies and procedures supporting an Incident Detection and
   Handling program for OIG systems?

                                    Number of Respondents          Percentage of Respondents
                                        to Question                       to Question
    Yes                                          26                           63.4%
    No                                           11                           26.8%
    No Data Given                                 4                            9.8%
    Grand Total                                  41                          100.0%

   a.    If “Yes,” are the policies and procedures consistent with NIST SP 800-61
         Computer Security Incident Handling Guide and/or service-level agreements
         with the OIG’s parent agency?

                                    Number of Respondents          Percentage of Respondents
                                        to Question                       to Question
          Yes                                    25                           61.0%
          No Data Given                           1                            2.4%
          Answer to previous
          question was “No” or
          not data given                         15                           36.6%
          Grand Total                            41                          100.0%

2. Does the OIG periodically test its Incident Handling and Detection procedures to
   ensure they meet OIG security objectives?

                                    Number of Respondents          Percentage of Respondents
                                        to Question                       to Question
    Yes                                          16                           39.0%
    No                                           20                           48.8%
    No Data Given                                 5                           12.2%
    Grand Total                                  41                          100.0%




                         Management Advisory Report on Cybersecurity

                                           Page 47
Appendix B
Summary of Survey Results

3. Who performs Incident Detection services for OIG systems?

                                   Number of Respondents          Percentage of Respondents
                                       to Question                       to Question
    Parent Agency                               17                           41.5%
    OIG                                          6                           14.6%
    Parent Agency/OIG                           14                           34.1%
    No Data Given                                4                            9.8%
    Grand Total                                 41                          100.0%

4. Who performs Incident Handling services for OIG systems?

                                   Number of Respondents          Percentage of Respondents
                                       to Question                       to Question
    Parent Agency                               12                           29.3%
    OIG                                          5                           12.2%
    Parent Agency/OIG                           20                           48.8%
    No Data Given                                4                            9.7%
    Grand Total                                 41                         100.0%

5. Does the parent organization keep the OIG informed of security incidents?

                                   Number of Respondents          Percentage of Respondents
                                       to Question                       to Question
    Yes                                         36                           87.8%
    No                                           1                            2.4%
    No Data Given                                4                            9.8%
    Grand Total                                 41                          100.0%

      5.a. If “No,” provide potential recommendations for improving notification of
           security related events.
          The one “No” respondent did not provide potential recommendations.




                        Management Advisory Report on Cybersecurity

                                          Page 48
Appendix B
Summary of Survey Results

6. Does the OIG maintain a complete and accurate listing of
   hardware/software/applications supporting OIG programs and operations?

                                      Number of Respondents          Percentage of Respondents
                                          to Question                       to Question
    Yes                                            31                           75.6%
    No                                              6                           14.6%
    No Data Given                                   4                            9.8%
    Grand Total                                    41                          100.0%

7. What method does the OIG use for encryption of email messages?

                                      Number of Respondents          Percentage of Respondents
                                          to Question                       to Question
    None                                         7                               12.7%
    PKI                                         16                               29.1%
    PGP                                          4                                7.3%
    Manual/attachment only
    encryption (i.e., Winzip or
    other)                                         16                           29.1%
    Other Encryption Method                         7                           12.7%
    No Data Given                                   5                            9.1%
    Grand Total                                    55                          100.0%
Note: For question 7, the number of responses is greater than the 41 respondents
      because respondents could pick more than one choice.

8. Does the OIG utilize encryption to protect OIG sensitive data from unauthorized
   access and disclosure?

                                      Number of Respondents          Percentage of Respondents
                                          to Question                       to Question
    Yes                                            30                           73.2%
    No                                              5                           12.2%
    No Data Given                                   6                           14.6%
    Grand Total                                    41                          100.0%




                           Management Advisory Report on Cybersecurity

                                             Page 49
Appendix B
Summary of Survey Results

       8.a.    If “Yes,” indicate whether the OIG has implemented these protections on
               end user computers and storage devices.

                                                                  Number of     Percentage of
                                                                 Respondents    Respondents
                                                                 to Question     to Question
                Whole disk encryption has been
                implemented on end user computers and
                storage devices.                                        23              56.1%
                Whole disk encryption has NOT been
                implemented on end user computers and
                storage devices.                                         5              12.2%
                Answer to previous question was “Yes” but
                respondent did not answer 8.a                            2              4.9%
                Answer to previous question was “No” or no
                data given                                              11           26.8%
                Grand Total                                             41          100.0%



9. Does the OIG have intrusion detection capability to monitor traffic on the OIG’s
   internal network?

                                     Number of Respondents          Percentage of Respondents
                                         to Question                       to Question
     Yes                                          22                           53.7%
     No                                           14                           34.1%
     No Data Given                                 5                           12.2%
     Grand Total                                  41                           100.0%

10. Does the OIG have a security event correlation capability to identify security incidents?

                                     Number of Respondents          Percentage of Respondents
                                         to Question                       to Question
     Yes                                          22                            53.7%
     No                                           14                            34.1%
     No Data Given                                 5                            12.2%
     Grand Total                                  41                           100.0%




                          Management Advisory Report on Cybersecurity

                                            Page 50
Appendix B
Summary of Survey Results

11. Does the OIG consistently review its system audit logs to detect unauthorized access
    attempts to OIG systems?

                                    Number of Respondents          Percentage of Respondents
                                        to Question                       to Question
    Yes                                                26                         63.4%
    No                                                  9                         22.0%
    No Data Given                                       6                         14.6%
    Grand Total                                        41                        100.0%




                         Management Advisory Report on Cybersecurity

                                           Page 51
Appendix C
Emergency Management Case Study

Emergency Management

It is the policy of the United States to have in place a comprehensive and effective
program to ensure continuity of essential Federal functions under all circumstances. As a
baseline of preparedness for the full range of potential emergencies, all Federal agencies
shall have in place a viable COOP capability which ensures the performance of their
essential functions during any emergency or situation that may disrupt normal operations.

COOP planning is simply a “good business practice”—part of the fundamental mission of
agencies as responsible and reliable public institutions. For years, COOP planning had
been an individual agency responsibility primarily in response to emergencies within the
confines of the organization. The content and structure of COOP plans, operational
standards, and interagency coordination, if any, were left to the discretion of the agency.

The changing threat environment and recent emergencies, including localized acts of
nature, accidents, technological emergencies, and military or terrorist attack-related
incidents, have shifted awareness to the need for COOP capabilities that enable agencies
to continue their essential functions across a broad spectrum of emergencies. Also, the
potential for terrorist use of weapons of mass destruction has emphasized the need to
provide the President a capability which ensures continuity of essential government
functions across the Federal Executive Branch.

To provide a focal point to orchestrate this expanded effort, Presidential Decision
Directive 67 established the Federal Emergency Management Agency (FEMA) as the
Executive Agent for Federal Executive Branch COOP. Inherent in that role is the
responsibility to formulate guidance for agencies to use in developing viable, executable
COOP plans; facilitate interagency coordination as appropriate; and oversee and assess
the status of COOP capability across the Federal Executive Branch. Additionally, each
agency is responsible for appointing a senior Federal government executive as an
Emergency Coordinator to serve as program manager and agency point of contact for
coordinating agency COOP activities.


Summary of OIG’s Disaster Preparedness Activities

DHS OIG participated in the COOP Eagle Horizon 2011 Exercise (EH-11) on Thursday,
June 23, 2011. EH-11 is the annual, integrated continuity exercise for all Federal
Executive Branch departments and agencies, as mandated by the National Continuity
Policy Implementation Plan, Federal Continuity Directive 1, and National Security
Presidential Directive-51/Homeland Security Presidential Directive-20, National
Continuity Policy.

The EH-11 exercise presents an opportunity to test organizational readiness and the
capability to execute continuity plans and programs. During the exercise, the Office of
Management, Information Technology Division (ITD), Infrastructure Branch was
responsible for three distinct responsibilities. The first task was the transferring (failover)
                           Management Advisory Report on Cybersecurity

                                             Page 52
Appendix C
Emergency Management Case Study

of IT Mission Essential Functions (MEFs) 34 from OIG’s primary location at
Headquarters in Washington, DC to the redundant disaster recovery site in Frisco, Texas.
Second, once the continuity of IT services was ensured through the successful transition
of operations to the redundant site, actions were started to prepare for the full recovery
and reconstitution (failback) of IT MEFs back to HQ. The third task was to form a
technical Advance Response Team to travel to the FEMA, National Emergency Training
Center in Emmitsburg, Maryland to coordinate and support the OIG Emergency
Relocation Group. The Advance Response Team was responsible for establishing
communications and connectivity to the network as well as supporting technical issues
from ERG members.

Since 2004, DHS ITD has been heavily involved in preparing and testing for COOPs in
the OIG. In June 2009, ITD implemented its first major testing of the IT systems by
failing over core network infrastructure and email services to the disaster data center.
While the tests were viewed as a success, there were several components that did not
behave as expected.

ITD began the planning for the 2011 COOP scenario in November of 2009. Once MEFs
were identified by senior management, several design changes were required to be made
to the existing underlying architecture for the new requirements as well as to correct the
problems that were identified in the previous 2009 COOP tests. Starting in March of
2010, ITD began to implement these changes on a monthly basis on the last Friday of
each month during the monthly maintenance. In April of 2011, the final changes were
implemented on a bi-weekly basis.


OIG’s Lesson’s Learned

DHS OIG has fully participated in the annual DHS Eagle COOP exercise since 2005. As
a major lead in COOP preparedness, ITD’s goals included establishing a redundant data
center for COOP and full failover of all mission critical applications and infrastructure to
the designated location. During the last seven years, OIG has continually improved upon
its disaster readiness through the continual improvements made to its COOP program.
The following chart summarizes lessons learned during the continual planning for and
execution of the annual COOP exercises.




34
  IT MEFs are categorized into three areas: 1) Core Network Infrastructure, 2) Messaging and
Communications, and 3) Files and Information.


                             Management Advisory Report on Cybersecurity

                                                Page 53
Appendix C
Emergency Management Case Study


                   EVENT                                      LESSON LEARNED
During first COOP exercise, DHS OIG                Identify MC applications as well as the
identified all MC applications but did not         infrastructure behind them.
include the required underlying
infrastructure to support the applications.
For example, components such as active
directory and SharePoint were initially
overlooked.
OIG users were not identified as MC and            After identifying MC systems, ensure
therefore were not available during COOP           proper authoritative personnel are aware of
tests.                                             the selected systems as well as those that
                                                   are not selected systems.
Some essential account information,                Identify support information from prior
infrastructure diagrams and support                COOP exercises.
information were not accessible with the
primary infrastructure offline.
During first COOP exercise, applications     Create specific test plans customized for
were tested for failover prior to the actual each MC component and involve multiple
test and were successful. When the test      personnel in the documentation, testing,
date came, several tests failed for various  and execution of each specific MC
reasons.                                     application; rotate a team to document and
                                             test the plan.
Large call volume and inundation due to      Set realistic expectations for user
basic requests.                              population on resource availability; provide
                                             a detailed explanation to your user base
                                             specifically stating what resources will be
                                             available.
Several Virtual Private Network (VPN)        Allow your user community that will be
users waited until the exercise date to test teleworking to connect, verify, and test
their VPN authentication and were            their capability to the network at least a
unprepared to connect to the VPN.            week prior to the test.
Could not calculate the increase or decrease Establish baseline statistics and metrics of
in load on test date because the team did    MC applications and infrastructure prior to
not know how many people connected to        the actual test so that you can capture
the VPN on a daily basis.                    statistics.




                           Management Advisory Report on Cybersecurity

                                               Page 54
Appendix D
Contributors to this Report

The CIGIE Cybersecurity Working Group consisted of representatives of the following
Offices of the Inspectors General:


Corporation for National and Community Service
Department of Agriculture
Department of Commerce
Department of Defense
Department of Education
Department of Health and Human Services
Department of Homeland Security
Department of State
Department of Transportation
Department of Veterans Affairs
Farm Credit Administration
Federal Deposit Insurance Corporation
National Aeronautics and Space Administration
National Security Agency
Securities Exchange Commission
Small Business Administration
Social Security Administration
Tennessee Valley Authority
Treasury Inspector General for Taxation Administration
United States International Trade Commission
United States Postal Service




                        Management Advisory Report on Cybersecurity

                                          Page 55
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
